IN THE
SUPREME COURT OF THE UNITED STATES
JANUARY TERM, 2021

RAYMOND BRIGHT
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.

APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF THE UNITED STATES
STATE OF FLORIDA

APPENDIX

DOCUMENT

A

Opinion From the Florida Supreme Court rendered on
April 2, 2020.

B

Order From the Florida Supreme Court Denying Motion
For Rehearing rendered on August 13, 2020.

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

299 So.3d 985

Supreme Court of Florida.
Raymond BRIGHT, Appellant,
v.
STATE of Florida, Appellee.
No. SC17-2244
|
April 2, 2020
Synopsis
Background: Defendant, whose conviction for first-degree murder and sentence to death
was affirmed on appeal, 90 So.3d 249, filed a petition for postconviction relief. The Circuit
Court, 4th Judicial Circuit, Charles Warner Arnold, Jr., J., granted defendant a new
penalty-phase trial. The State appealed and defendant filed a cross-appeal. The Supreme
Court, 200 So.3d 710, affirmed. The Circuit Court resentenced defendant to death.
Defendant appealed.

Holdings: The Supreme Court held that:
the prosecutor’s improper statement as to the burden of proof for mitigating circumstances
did not constitute fundamental error;
the prosecutor’s statement referring to mitigation as a “credit” for defendant did not
constitute an impermissible argument to the jury that its weighing process should be
conducted by comparing the number of aggravating factors with the number of mitigating
circumstances;
evidence was sufficient to support the trial court’s finding of the especially heinous,
atrocious, or cruel (HAC) aggravator;
substantial, competent evidence support the trial court’s determination that the mitigator
based on defendant’s capacity to appreciate the criminality of his conduct or to conform his
conduct to the requirements of law was substantially impaired did not apply; and
death sentence imposed on defendant for first-degree murder based on single statutory
aggravating factor that defendant was previously convicted of a capital felony or a felony
involving the use or threat of violence to a person or both was proportionate to those in
other cases involving a single aggravating circumstance.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

Affirmed.
Labarga, J., concurred in the result.
Procedural Posture(s): Appellate Review; Trial or Guilt Phase Motion or Objection;
Sentencing or Penalty Phase Motion or Objection.
*989 An Appeal from the Circuit Court in and for Duval County, Russell L. Healey, Judge
- Case No. 162008CF002887AXXXMA
Attorneys and Law Firms
Andy Thomas, Public Defender, and A. Victoria Wiggins, Assistant Public Defender,
Second Judicial Circuit, Tallahassee, Florida, for Appellant
Ashley Moody, Attorney General, and Lisa A. Hopkins, Assistant Attorney General,
Tallahassee, Florida, for Appellee
Opinion
PER CURIAM.
In 2009, Raymond Bright was convicted of the first-degree murders of Derrick King and
Randall Brown and sentenced to death for each murder. This Court affirmed the
convictions and sentences on direct appeal. Bright v. State (Bright I), 90 So. 3d 249, 265
(Fla. 2012). In subsequent postconviction proceedings, Bright was granted a new penalty
phase proceeding on the basis that his trial counsel rendered ineffective assistance in
investigating and presenting mitigating evidence. State v. Bright (Bright II), 200 So. 3d
710, 736 (Fla. 2016). Bright now appeals from the second penalty phase at which a death
sentence was imposed for each murder following jury verdicts unanimously recommending
death. We have jurisdiction. See art. V, § 3(b)(1), Fla. Const. For the reasons that follow,
we affirm the sentences.

I. FACTUAL AND PROCEDURAL BACKGROUND

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

Trial and Direct Appeal
This Court previously set forth the relevant facts in Bright I:
On February 18, 2008, Michael Majors went to the home of fifty-four-year-old defendant
Raymond Bright in Jacksonville, Florida. Twenty-year-old Derrick King,
sixteen-year-old Randall Brown, and Bright were in the house. At approximately *990 8
p.m., Majors and Brown both left the home.
Brown returned to his mother’s home and, after receiving a phone call, borrowed his
mother’s rental vehicle and left her house between 9 and 9:30 p.m. At approximately 11
p.m., Brown spoke with his mother by phone and advised that he would be home shortly;
however, he never returned. At around 8 a.m. the next morning, Majors attempted to
call Brown on his cellular phone, but there was no answer. Majors called Brown’s mother
and was advised that Brown had not returned. Majors then went to Bright’s house and,
having no response to his knock at the door, Majors climbed into the house through an
open window. Upon entering the family room, Majors discovered the bodies of King and
Brown.
Derrick King was lying face down on the carpet next to a sofa, partially wrapped in a
sleeping bag or comforter. The sofa was saturated with blood on one end, which was
adjacent to where King’s head rested on the floor. The wall behind the sofa and the
ceiling above the sofa evidenced blood. An evidence technician testified during trial that
the blood on the ceiling was cast-off blood, [n.1] and the pattern was consistent with
someone being on the couch and swinging his arm back.
[N.1] Cast-off blood is defined as droplets of blood that are flung from a weapon so as to
make a trail of blood where it lands.
Randall Brown was found seated sideways in a recliner with his head leaning up against
a wall and a blanket covering his head. The wall against which Brown’s body rested
presented a pattern of blood that radiated from his head, and there was also blood on the
ceiling. When crime scene technicians moved the recliner away from the wall, a pool of
blood was discovered on the floor. Above Brown’s head was a framed picture with one
side of the frame broken away. That one side was indented, consistent with having been
struck by something round, such as a hammer.
Outside the house, the crime scene technicians located a loaded nine-millimeter Smith &
Wesson pistol, a loaded assault rifle, and a pair of mechanic’s gloves. During a
subsequent search of Bright’s yard, technicians recovered a hammer that had been
buried. DNA testing on the hammer revealed two separate DNA profiles, one of which
was a major contributor and the other of which was a minor contributor. During trial,
the parties stipulated that the DNA of the major contributor matched the known profile
of Derrick King. Randall Brown could not be excluded as the minor contributor. The
gloves did not test positive for blood. Further, no latent fingerprints of value were found
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

on the hammer, the nine-millimeter handgun, the assault rifle, or their magazines or
ammunition. No foreign DNA was detected on the fingernail clippings of either victim.
At 7:30 a.m. on the morning of February 19 (the day that the victims were discovered),
Bright’s ex-wife picked him up at a church near his home. The ex-wife testified that she
and Bright had made plans to secure the admission of Bright to a United States
Department of Veterans Affairs clinic for treatment of his cocaine addiction. She
testified that they had agreed to meet at the church because she “was in fear of what
was going on” at Bright’s house. During the Spencer hearing, see Spencer v. State, 615
So. 2d 688 (Fla. 1993), the ex-wife testified that she and Bright had previously made
multiple calls to law enforcement—including the narcotics division of the Jacksonville
Sheriff’s Department and Crime Stoppers—to report that *991 Bright wanted certain
individuals removed from his house because they had essentially taken over the house
for the purpose of selling drugs. While one officer suggested that Bright accompany the
police to the house and identify the persons who were allegedly dealing drugs, Bright
and his ex-wife refused to agree to this proposal because they feared retaliation. [n.2]
[N.2] Bright’s sister, Janice Jones, also testified during the Spencer hearing as to her
efforts to remove individuals who were staying in Bright’s house. When asked what
their names were, she replied Lavelle and Derrick. During the guilt phase, Michael
Majors testified that Bright rented a room to an individual named Lavelle Copeland,
who was friends with Majors and King. Jones managed to convince Copeland to call
her and, when he called, she informed him that she was coming to Jacksonville and
would bring the police with her. Copeland responded that he would not leave until
Bright paid the money owed to him. When Jones offered to pay the money so that
Copeland would leave the house, he responded, “You need to stay out of this. You don’t
know what you’re getting into. It’s between me and your brother.” Copeland was not at
Bright’s house on the night of the murders because he was in jail.
After the ex-wife met Bright at the church on the morning of February 19, she called a
lawyer and arranged for Bright to speak with homicide detectives the next day.
However, at 1:45 a.m. on February 20, law enforcement arrived at the home of the
ex-wife and Bright was placed in custody. Subsequent to the arrest, the ex-wife disposed
of Bright’s bloody clothes because she did not want them in her house.
Bright made statements to separate individuals with regard to what allegedly occurred
on the night of the murders. Prior to his arrest, Bright informed friend and former
coworker Benjamin Lundy that he had “screwed up” and may have killed two people.
Bright told Lundy that the murders occurred after a confrontation erupted when one of
the victims accused Bright of stealing drugs. After his arrest, Bright also described the
events to Mickey Graham, who was in jail at the same time with Bright on unrelated
charges. According to Graham, Lavelle Copeland had moved in with Bright, and he and
others were running a crack cocaine operation out of the house. [n.3] Bright was afraid of
them and felt threatened because they possessed guns. Bright did not want them there
and had called the police in an attempt to remove them from the premises.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

[N.3] On a table in the home, an evidence technician found scales, money, and a “push
rod,” which is used to pack drugs into a pipe or a bong. However, no drugs were found
in the house other than 4.6 grams of marijuana, which was discovered inside Derrick
King’s sneaker.
Bright told Graham that he went into the kitchen at 2 a.m. on February 19. King was on
the sofa and Brown was in the recliner. Brown had a nine-millimeter handgun in his
hand and started waving it around. King rose from the sofa and removed the gun from
Brown’s hand. Bright saw an opportunity and attempted to take the gun away from
King. The men struggled and the gun discharged. [n.4] The gunshot startled King and
caused him to release the handgun. Bright then pointed the gun at King and attempted
to shoot him, but the gun misfired. Bright dropped the weapon and attempted to run out
of the house, but he tripped and fell. He grabbed a hammer that was within *992 reach,
turned around, and commenced striking King, knocking him back toward the sofa where
King had previously been lying down. When Bright turned around, he saw that Brown
was about to pick up the handgun. Bright then began to strike Brown with the hammer.
The next time Bright turned toward the sofa, he saw King reaching for an assault rifle.
At that time, Bright again struck King with the hammer. When Bright stopped, he could
still hear King and Brown breathing and gurgling, but then the room became silent.
Bright described his actions to Graham as having “lost it.”
[N.4] In the vicinity of King’s body was a section of carpet that appeared to be stained
with gunshot residue. Testing on the carpet was positive for gunshot residue, and a
firearms expert testified that, based upon the location of the residue, a weapon had
been fired within six inches of the carpet. From that stain, the evidence technicians
traced a bullet trajectory and ultimately discovered a bullet lodged in the wall near the
front door of the house. However, neither of the victims’ hands tested positive for
gunshot residue. A firearms expert confirmed that the bullet lodged in the wall had
been fired from the nine-millimeter handgun that had been discovered in the yard.
90 So. 3d at 252-54. The jury found Bright guilty of two counts of first-degree murder and
ultimately recommended a sentence of death for the murders of King and Brown by a vote
of eight to four. Id. at 256. After conducting a Spencer1 hearing, the trial court found the
same aggravating and mitigating circumstances for each victim and concluded that the
established aggravating2 factors substantially outweighed the mitigating3 circumstances.
*993 90 So. 3d at 256-57. The trial court sentenced Bright to death. Id. at 257. On direct
appeal, this Court affirmed the convictions and sentence. Id. at 265. The United States
Supreme Court denied Bright’s petition for writ of certiorari. Bright v. Florida, 568 U.S.
897, 133 S.Ct. 300, 184 L.Ed.2d 177 (2012).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

Postconviction Proceeding
On November 6, 2013, Bright filed an amended motion to vacate his judgment and
sentences pursuant to Florida Rule of Criminal Procedure 3.851. In his motion, Bright
claimed that his trial counsel were ineffective during the guilt and penalty phases of his
trial and that he was deprived of a fair trial by the cumulative effect of any errors. Bright
II, 200 So. 3d at 722. After conducting an evidentiary hearing, the postconviction court
held that Bright’s penalty phase counsel were ineffective but denied Bright’s remaining
claims. Id. at 723. The postconviction court entered an order granting Bright a new
penalty phase. Id. The parties cross-appealed the order.
This Court affirmed the postconviction court’s order granting a new penalty phase,4
holding that there was competent, substantial evidence to support the trial court’s
findings that penalty phase counsel were deficient in investigating mitigation evidence
concerning Bright’s mental health and that Bright was prejudiced by that deficient
performance. Id. at 732-36. This Court remanded for a new penalty phase proceeding. Id.
at 742.

Second Penalty Phase Proceeding
The second penalty phase proceeding began on September 5, 2017. The State presented
much of the same guilt-phase evidence through live witness testimony, including Brown’s
mother, Carrie Mae Brown Gray; Brown’s friend, Michael Majors; and police officers and
crime scene investigators from the Jacksonville Sheriff’s Office. Victim impact statements
were read by King’s grandmother, Eartha Jaudon; Brown’s mother, Gray; Brown’s sister,
Shannon Brown; and King’s mother, Carolyn Jaudon. Retired Pensacola Police
Department Sergeant Robert Bell testified that on September 6, 1989, he witnessed Bright
holding a knife while robbing a convenience store clerk. Specifically, Bell testified that he
saw Bright “standing on the side of the counter, holding the knife, leaning over the
counter like he was attempting to get money out of the register.” Bright ran from the store
but was eventually caught and arrested. The State introduced a copy of the conviction,
judgment, and sentence from 1990.
The State’s final witness was Dr. Valerie Rao, the Chief Medical Examiner for Clay,
Nassau, and Duval Counties. With regard to Brown, Dr. Rao testified that his cause of
death was blunt head trauma. He had more than fourteen injuries to the outside of his
head, which included lacerations, bruises, contusions, and fractures. The fourteen injuries
did not include the skull fractures or brain injuries. Dr. Rao testified that the lacerations
on Brown’s head and skull fractures were consistent with a hammer being used to inflict
the injuries. Brown had many defensive injuries, including a fracture of his left ulna,
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

punctate-type lacerations to his left arm, and injuries to his wrists, hands, and thigh.
Brown also suffered multiple skull fractures. Dr. Rao also testified that Brown was alive
when the injuries were inflicted, as evidenced by the bruising and swollen face.
*994 With regard to King, Dr. Rao testified that King also died from blunt impact to the
head. He had thirty-eight blunt impact injuries to his head and about twenty injuries to
his extremities. King suffered a laceration through the upper eyelid above the right
eyebrow, through the left eye. His eye was sunken because of the trauma. One injury on
his head went through his scalp to reveal his underlying skull; the injuries on his head
showed a parallel pattern received from a claw impacting and dragging. King also had
circular fractures that caused multiple injuries to his brain and bleeding on the surface of
his brain. These injuries were consistent with being caused by a hammer. Dr. Rao also
testified that King was alive when these injuries were inflicted and that he suffered. King
was covered with numerous defensive wounds: bruising on his left arm; a fracture of his
left ulna; abrasions and bruising of the entire back of his left hand; bruising and abrasions
on his right forearm and back of his right hand; and an abrasion and laceration on his left
knee. On redirect, Dr. Rao also testified that King and Brown were not unconscious after
one blow because each individual had defensive wounds.
The defense then presented its case for mitigation. The first witness for the defense was
Janice Jones, Bright’s sister. Jones testified regarding her and Bright’s impoverished
childhood. She also testified that Bright was abused by their father during his childhood.
Their father would hit Bright two or three times a week with items from the junkyard
where they lived. Additionally, at least twice a month, their father would administer
hours-long planned beatings, which were for previously unpunished wrongs that the
father would add-up. Bright’s father would beat him to the point of drawing blood, and
sometimes losing consciousness. During the beatings, the father would lecture them from
the Bible. Bright was also beaten for stuttering and wetting his bed. Bright’s father ran a
junkyard that surrounded their house. As children, both Jones and Bright were forced to
work in the junkyard from the time the sun rose until dark. Jones also testified that she
and Bright witnessed their father abuse their mother and that their father would
frequently binge drink alcohol.
Jones also testified about Bright joining the United States Marine Corps and training to
be an aircraft mechanic. When Bright returned from the military, Jones noticed him
struggling with alcohol. She also noticed him having problems with other substances in
1989. She helped Bright participate in a thirty-day treatment program with the Veterans
Administration, but he struggled after the program was over.
In November of 2007, three months before the murders, Jones saw Bright and believed he
was depressed. Jones testified that shortly before the murders she tried unsuccessfully to
get individuals who were residing in Bright’s house to leave. After failing to get the
individuals out of Bright’s house, Bright seemed to be in distress and in fear. Finally,
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

Jones testified that Bright has taken care of her and her children and that they have a
positive relationship. Bright also has a positive relationship with his grandchildren and
Jones’s grandchildren.
Bright’s childhood friend and neighbor, Isidore Knight, also testified. Knight grew up
across the street from Bright and remembers that Bright had to work in the junkyard
from the age of six or seven, from sunup to sundown, six days a week. Bright worked even
when injured. Knight saw Bright get “whipped” with an extension cord as punishment and
characterized Bright’s childhood as “torture.”
Psychologist Dr. Harry Krop testified regarding an assessment and testing done for
Bright’s original penalty phase. Dr. *995 Krop saw Bright in August of 2008 to assess
Bright’s competency to proceed to trial and again in July of 2009. Dr. Krop found Bright
competent. His testing revealed no signs of psychopathy or malingering. Bright appeared
highly anxious, situationally depressed and reported having panic attacks. Dr. Krop did
not diagnose Bright with Post Traumatic Stress Disorder (PTSD).
The defense also presented the testimony of Dr. Steven Gold, a psychologist and expert in
trauma psychology who interviewed Bright in 2013. Dr. Gold evaluated Bright using risk
factors set forth in the Adverse Childhood Experience Study (ACES). ACES identifies ten
adverse childhood experiences, or factors. The greater the number of factors a person has
in his or her background the higher the rate of psychological and medical problems. Bright
experienced all ten ACES factors. Dr. Gold diagnosed Bright with PTSD as a result of his
childhood abuse. Dr. Gold testified that PTSD played a role in this case. Specifically, Gold
testified that Bright felt threatened and in constant danger in his home as a child and that
Bright’s childhood related to the murders because two men had entered Bright’s home,
destroyed it, and refused to leave. Dr. Gold stated that Bright felt in danger over a period
of days or weeks before the murders and opined that Bright killed King and Brown while
he was under the influence of extreme mental or emotional disturbance. He also opined
that Bright’s capacity to appreciate the criminality of his conduct or to conform his
conduct to the requirements of the law was substantially impaired.
Finally, the defense presented the testimony of Dr. Robert Ouaou, a neuropsychologist. Dr.
Ouaou evaluated Bright in 2014. Dr. Ouaou stated Bright suffered from severe emotional
distress as a result of his abusive parents. Dr. Ouaou did not diagnose Bright with PTSD
and did not find Bright to have a cognitive disability. Dr. Ouaou acknowledged that
Bright’s military discharge was related to his alcohol problem and that after his discharge,
he developed a drug addiction.5
After closing arguments and deliberations, the jury returned a verdict for each
victim—King (Count I) and Brown (Count II)—unanimously recommending that Bright be
sentenced to death. As to King, the jury unanimously found that two aggravators were
proven beyond a reasonable doubt: (1) Bright was previously convicted of a capital felony
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

or a felony involving the use or threat of violence to a person; and (2) the murder was
especially heinous, atrocious, or cruel. With regard to mitigators, by a vote of eleven to
one, the jury rejected the statutory mitigator that the murder was committed while Bright
was under the influence of extreme mental or emotional *996 disturbance. The jury also
unanimously rejected the statutory mitigator that the capacity of Bright to appreciate the
criminality of his conduct or to conform his conduct to the requirements of law was
substantially impaired. By a vote of eleven to one, the jury rejected the mitigator that
there existed any other factors in Bright’s character, background, or life or the
circumstances of the offense mitigating against the imposition of the death penalty.6 The
jury unanimously found that the aggravating factors were sufficient to warrant a sentence
of death and that those factors outweighed the mitigating circumstances. Ultimately, the
jury unanimously found that Bright should be sentenced to death for the murder of King.
As to Brown, the jury unanimously found the aggravator that Bright was previously
convicted of a capital felony or a felony involving the use or threat of violence to a person
was proven beyond a reasonable doubt. However, unlike King, the jury did not find that
the murder was especially heinous, atrocious, or cruel. By a vote of eleven to one, the jury
rejected each of the following statutory mitigators: (1) that the murder was committed
while Bright was under the influence of extreme mental or emotional disturbance; (2) that
the capacity of Bright to appreciate the criminality of his conduct or to conform his
conduct to the requirements of law was substantially impaired; and (3) that there existed
any other factors in Bright’s character, background, or life or the circumstances of the
offense mitigating against the imposition of the death penalty. The jury unanimously
found that the aggravating factors were sufficient to warrant a sentence of death and that
those factors outweighed the mitigating circumstances. The jury unanimously found that
Bright should be sentenced to death for the murder of Brown.
The trial court conducted a Spencer hearing on November 1, 2017. Bright’s daughter,
Tenneka Bright, testified as to the close relationship she has with her father and the fact
that he has always been there for her. She also testified that in the days before the
murders she was not able to reach her father by phone and that when she called his
number someone else answered. A classification officer from the correctional institution
where Bright is incarcerated testified that Bright had no disciplinary reports.
On December 8, 2017, the trial court entered its sentencing order, imposing a sentence of
death on Bright for each murder. As to King, the trial court found that the State had
proven beyond a reasonable doubt the statutory aggravators that Bright was previously
convicted of another capital felony or of a felony involving the use or threat of violence to
the person, § 921.141(6)(b), Fla. Stat. (2017) (the 1990 conviction for armed robbery and
the contemporaneous murder) (great weight), and that the murder was especially heinous,
atrocious, or cruel (HAC), § 921.141(6)(h), Fla. Stat. (2017) (great weight). As to Brown,
the trial court found that the State had proven beyond a reasonable doubt the statutory
aggravator that Bright was previously convicted of another capital felony or of a felony
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

involving the use or threat of violence to the person (the 1990 conviction for armed robbery
and the contemporaneous murder) (great weight).
The trial court rejected the two statutory mitigating circumstances presented by Bright
with respect to each murder—that the murder was committed while Bright was under the
influence of extreme mental or emotional disturbance, *997 § 921.141(7)(b), Fla. Stat.
(2017), and that Bright’s capacity to appreciate the criminality of his conduct or to conform
his conduct to the requirements of law was substantially impaired, § 921.141(7)(f), Fla.
Stat. (2017). The trial court considered thirty-eight nonstatutory mitigating circumstances
under the catch-all provision for the existence of any other factors in the defendant’s
background that would mitigate against imposition of the death penalty, § 921.141(7)(h),
Fla. Stat. (2017). The trial court grouped the nonstatutory mitigators into six categories,
found each established, and assigned no or little weight to each category. Specifically, the
trial court found: (1) Bright was the victim of child abuse and neglect7 (no weight); (2)
Bright’s military career8 (little weight); (3) Bright’s history of drug and alcohol abuse9
(little weight); (4) Bright’s positive relationships with others10 (little weight); (5) Bright’s
good and mannerly behavior during court proceedings (no weight); and (6) Bright’s
behavior while incarcerated (no weight).
The trial court found that the “aggravating circumstances heavily outweigh the mitigating
circumstances, and that death is the proper penalty the Court should impose for the
murders of Derrick King and Randall Brown.” Bright appeals from the trial court’s order
imposing sentences of death for the murders of King and Brown.

II. ANALYSIS
On appeal, Bright raises the following five claims: (1) the trial court committed *998
fundamental error by failing to instruct the jury that it must determine beyond a
reasonable doubt whether the aggravators were sufficient to impose death and outweighed
the mitigators; (2) the prosecutor made multiple improper comments during closing
argument constituting fundamental error; (3) there was insufficient evidence to support
the finding of the especially heinous, atrocious, or cruel aggravator; (4) the trial court
abused its discretion in rejecting statutory mitigating circumstances and in assigning no
weight to the nonstatutory mitigation of Bright’s childhood abuse; and (5) the sentences of
death are not proportionate. We address each claim in turn.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

A. Sufficiency of the Jury Instructions
Bright argues that the trial court erred by failing to instruct the jury that it must
determine beyond a reasonable doubt whether the aggravating factors were sufficient to
impose a sentence of death and whether those factors outweighed the mitigating
circumstances. Bright’s argument has no merit.
“[S]ubsequent to our decision in Hurst v. State [202 So.3d 40 (Fla. 2016) ], we already have
receded from the holding that the additional Hurst v. State findings are elements.” State v.
Poole, 292 So.3d 694 (Fla. Jan. 23, 2020). In Rogers v. State, 285 So. 3d 872, 885-86 (Fla.
2019), we clarified:
To the extent that in Perry v. State, 210 So. 3d 630, 633 (Fla. 2016), we
suggested that Hurst v. State held that the sufficiency and weight of the
aggravating factors and the final recommendation of death are elements
that must be determined by the jury beyond a reasonable doubt, we
mischaracterized Hurst v. State, which did not require that these
determinations be made beyond a reasonable doubt. Since Perry, in In re
Standard Criminal Jury Instructions in Capital Cases, [244 So. 3d 172
(Fla. 2018)] and Foster [v. State, 258 So. 3d 1248 (Fla. 2018)], we have
implicitly receded from its mischaracterization of Hurst v. State. We now
do so explicitly. Thus, these determinations are not subject to the beyond
a reasonable doubt standard of proof, and the trial court did not err in
instructing the jury.

Thus, because the trial court did not err in failing to instruct the jury to determine beyond
a reasonable doubt whether the aggravating factors were sufficient and outweighed
mitigating circumstances, no fundamental error occurred,11 and Bright is not entitled to
relief on this claim.

B. Improper Prosecutorial Comments in Closing Argument
Bright next asserts that the State’s prosecutor made multiple improper comments during
closing argument. As an initial matter, Bright’s counsel did not contemporaneously object
to the comments Bright now raises as error on appeal. Generally, the failure to
contemporaneously object to allegedly improper closing argument comments waives the
issue for review. Card v. State, 803 So. 2d 613, 622 (Fla. 2001) (“As a general rule, the
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

failure to raise a contemporaneous objection when improper closing argument comments
are made waives any claim concerning such comments for appellate review.”); Urbin v.
State, 714 So. 2d 411, 418 n.8 (Fla. 1998) (“We have long held that allegedly improperly
[sic] prosecutorial comments are not cognizable on appeal absent a contemporaneous
objection.”). “The sole exception to the general rule is where the unobjected-to comments
rise to the level of fundamental error.” *999 Walls v. State, 926 So. 2d 1156, 1176 (Fla.
2006); accord Card, 803 So. 2d at 622. “This is a high burden which requires an error that
‘goes to the foundation of the case or the merits of the cause of action and is equivalent to
a denial of due process.’ ” Bailey v. State, 998 So. 2d 545, 554 (Fla. 2008) (quoting Johnson
v. State, 969 So. 2d 938, 955 (Fla. 2007)). Fundamental error “has also been described as
error that is so significant that the sentence of death ‘could not have been obtained
without the assistance of the alleged error.’ ” Poole v. State, 151 So. 3d 402, 415 (Fla. 2014)
(quoting Snelgrove v. State, 107 So. 3d 242, 257 (Fla. 2012)).
First, Bright argues that the prosecutor erroneously told the jury to ignore evidence of
mitigation (i.e., that Bright suffered childhood abuse) in contravention of the United
States Supreme Court’s mandate in Eddings v. Oklahoma, 455 U.S. 104, 102 S.Ct. 869, 71
L.Ed.2d 1 (1982), that the sentencer in a capital case consider mitigation evidence. See id.
at 113-14, 102 S.Ct. 869 (“Just as the State may not by statute preclude the sentencer
from considering any mitigating factor, neither may the sentencer refuse to consider, as a
matter of law, any relevant mitigating evidence.”). The allegedly improper comment, to
which defense counsel did not object, is as follows:
Your decision should not be influenced by feelings of prejudice or by racial
or ethnic bias or sympathy. That’s not a basis for your decision, that he
was abused, et cetera. No. You cannot have sympathy for that in terms of
-- it’s mitigation and aggravation. You can’t have sympathy for the victim
or the defendant -- for the victims, I should say.

Here, the prosecutor did not instruct the jurors to disregard evidence of Bright’s abuse in
reaching their decisions, but rather, explained that the evidence of abuse is properly
considered as mitigation, and that their decisions may not be based upon sympathy. See
Zack v. State, 753 So. 2d 9, 24 (Fla. 2000) (“[T]he State’s argument concerning sympathy
was a proper admonition for the jurors to consider the mitigation evidence without resort
to their emotions.” (footnote omitted)); see also Saffle v. Parks, 494 U.S. 484, 493, 110 S.Ct.
1257, 108 L.Ed.2d 415 (1990) (“[N]othing in ... Eddings prevents the State from
attempting to ensure reliability and nonarbitrariness by requiring that the jury consider
and give effect to the defendant’s mitigating evidence in the form of a ‘reasoned moral
response,’ rather than an emotional one.” (citation omitted) (quoting California v. Brown,
479 U.S. 538, 545, 107 S.Ct. 837, 93 L.Ed.2d 934 (1987))). Furthermore, the prosecutor’s
argument concerning sympathy was consistent with the final jury instructions read by the
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

trial court to the jury,12 which in turn mirrored interim amended jury instruction 7.11(a)
Final Instructions in Penalty Proceedings—Capital Cases.13 As such, the prosecutor’s
comments were not error, much less fundamental error.
*1000 Second, Bright argues that the prosecutor improperly instructed the jury that the
only way to follow the law was to vote for death. Bright points to the following statement
by the prosecutor, to which Bright’s counsel did not object:
And by the way, as we stressed about in jury selection, you’re never
compelled to actually vote for death. But I would submit to you that this is
the case that you should in terms of following the law.

This Court has held that it is improper for a prosecutor to assert in closing argument that
it is a juror’s duty under the law to vote for a sentence of death rather than life. For
example, in Urbin, the prosecutor argued to the jury that “my concern is that some of you
may be tempted to take the easy way out, to not weigh the aggravating circumstances and
the mitigating circumstances and not want to fully carry out your responsibility and just
vote for life,” and “I’m going to ask you not be swayed by pity or sympathy. ... I’m going to
ask you to follow the law. I’m going to ask you to do your duty.” 714 So. 2d at 421. This
Court found the comments improper because they “implied that the jury was required by
law to return a recommendation of death.” Braddy v. State, 111 So. 3d 810, 851 (Fla. 2012)
(emphasis in original) (quoting Wade v. State, 41 So. 3d 857, 871 (Fla. 2010) (addressing
the holding in Urbin)); see also Davis v. State, 136 So. 3d 1169, 1207 (Fla. 2014) (“[T]his
Court has concluded that it is improper for the State to tell jurors that ‘the only proper
recommendation to this court is a recommendation of death’ or that the jurors have a legal
duty to recommend the ‘appropriate punishment’ of death.”). Here, however, the
prosecutor’s comment that the jurors “should” vote for a sentence of death did not imply
that they were required by law to do so. Indeed, immediately before the comment, the
prosecutor correctly told the jurors that they are never compelled to vote for death. Thus,
the allegedly improper comment was not error, much less fundamental error.
Next, Bright argues that the prosecutor misstated the burden of proof for mitigating
circumstances. Again, Bright’s counsel did not object to the following comment:
Then you go, okay, what -- what mitigation has been proven? And
remember, we talked about that mitigation doesn’t have to be proven
beyond a reasonable doubt. It’s just a reasonable certainty.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

This Court has held that a mitigating circumstance exists where it is established by the
greater weight of the evidence. See Diaz v. State, 132 So. 3d 93, 117 (Fla. 2013) (stating
that established law recognizes “that mitigating factors [must] be ‘established by the
greater weight of the evidence’ ” (quoting Mansfield v. State, 758 So. 2d 636, 646 (Fla.
2000))); Bolin v. State, 117 So. 3d 728, 740 (Fla. 2013) (“The trial court must find a
mitigating circumstance if it ‘has been established by the greater weight of the evidence.’ ”
(quoting Coday v. State, 946 So. 2d 988, 1003 (Fla. 2006))). Thus, as the State properly
acknowledges, the prosecutor’s comment that the mitigation must be proven to a
reasonable certainty was erroneous.
In determining whether a comment found to be improper constitutes fundamental error,
this Court’s consideration “include[s] whether the statement was repeated and whether
the jury was provided with an accurate statement of the law after the improper comment
was made.” Poole, 151 So. 3d at 415. Here, the prosecutor did not repeat the improper
burden of proof in closing argument. Additionally, the final jury instructions read by the
trial court to the jury included an accurate statement of the law on the burden of proof
regarding mitigating circumstances.14 We therefore *1001 find that the prosecutor’s single
misstatement of the law was not so harmful that the sentence of death could not have
been obtained without the assistance of the error. Accordingly, the prosecutor’s comment
does not rise to the level of fundamental error. See Kaczmar v. State, 228 So. 3d 1, 12 (Fla.
2017) (finding that prosecutor’s improper characterization of mitigating evidence did not
rise to the level of fundamental error where comment was made only once, and the trial
court read the standard jury instructions, which included an accurate statement of the
law).
Finally, Bright argues that the prosecutor mischaracterized mitigation as a “credit” for
Bright. The comments, to which defense counsel did not object, are as follows:
Defendant’s character? I guess they’re going to say -- and he did. He
served nine years. We’ve got to give him credit for that. He served nine
years in the Marines. ... Defense is going to go, well, hold on. At one point,
he saved some aircraft that potentially could have crashed and potentially
saved the life of an airman that was going to fly. He should get credit for
that.

Bright appears to be arguing that the prosecutor improperly told the jury that the process
of weighing aggravating factors and mitigating circumstances is a quantitative analysis.
See, e.g., Taylor v. State, 937 So. 2d 590, 601 (Fla. 2006) (holding that the process of
weighing aggravating and mitigating circumstances during capital sentencing proceedings
is not a quantitative comparison). The prosecutor’s comments, however, are more properly
read as the State’s acknowledgment that Bright’s service in the Marines, including his
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

14

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

action of discovering a potentially fatal mechanical problem with an aircraft, constitutes a
mitigating circumstance. A review of the prosecutor’s entire closing argument shows that
no other proposed mitigation was characterized as a “credit” for Bright. Accordingly, the
prosecutor did not impermissibly argue to the jury that its weighing process should be
conducted by comparing the number of aggravating factors with the number of mitigating
circumstances.
Bright also contends that the cumulative effect of the prosecutor’s improper remarks
constituted fundamental error. See Card, 803 So. 2d at 622 (“We do not examine allegedly
improper comments in isolation. Rather, the Court examines the totality of the errors in
the closing argument and determines whether the cumulative effect of the numerous
improprieties deprived the defendant of a fair penalty phase hearing.”). A review of the
unobjected-to comments made by the prosecutor, however, shows that only one comment
was improper—the misstatement of law as to burden of proof for mitigators—and that this
single error did not rise to the level of fundamental error. A single improper comment in
closing argument does not support a cumulative error analysis. See, e.g., Diaz, 132 So. 3d
at 118 (“[A] cumulative error claim fails when there are not multiple errors.”); Johnson v.
State, 104 So. 3d 1010, 1029 (Fla. 2012) (“[The defendant], however, has failed to identify
multiple instances of error. And because multiple errors did not occur in this case, *1002
[the defendant]’s claim of cumulative error must fail.”). Accordingly, Bright’s claim of
cumulative error fails as well.
Because none of the allegedly improper comments—either individually or
cumulatively—rise to the level of fundamental error, Bright is not entitled to relief with
regard to this claim. See Braddy, 111 So. 3d at 846 (“Likewise if any unpreserved
improper comments do not individually or cumulatively constitute fundamental error, we
will not reverse [the defendant’s] sentence.”).

C. Especially Heinous, Atrocious, or Cruel Aggravating Factor
Bright argues that there was insufficient evidence to support the trial court’s finding of
the “especially heinous, atrocious, or cruel” (HAC) aggravator. § 921.141(6)(h), Fla. Stat.
(2017). Specifically, Bright contends that the evidence was insufficient to support the
finding of the HAC aggravator because there is no evidence that King was conscious and
aware of his impending death. Because we find that there was competent, substantial
evidence that King was conscious and aware of impending death, Bright’s claim is without
merit.
“When reviewing claims alleging error in the application of aggravating factors, this Court
does not reweigh the evidence.” McGirth v. State, 48 So. 3d 777, 792 (Fla. 2010); accord
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

15

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

Willacy v. State, 696 So. 2d 693, 695 (Fla. 1997) (“[I]t is not this Court’s function to
reweigh the evidence to determine whether the State proved each aggravating
circumstance beyond a reasonable doubt—that is the trial court’s job.”). Instead, “[i]n
reviewing an aggravating factor challenged on appeal, this Court’s task ‘is to review the
record to determine whether the trial court applied the right rule of law for each
aggravating circumstance and, if so, whether competent substantial evidence supports its
finding.’ ” Douglas v. State, 878 So. 2d 1246, 1260-61 (Fla. 2004) (quoting Willacy, 696 So.
2d at 695).
This Court has previously defined the HAC aggravator as follows:
It is our interpretation that heinous means extremely wicked or
shockingly evil; that atrocious means outrageously wicked and vile; and,
that cruel means designed to inflict a high degree of pain with utter
indifference to, or even enjoyment of, the suffering of others. What is
intended to be included are those capital crimes where the actual
commission of the capital felony was accompanied by such additional acts
as to set the crime apart from the norm of capital felonies—the
conscienceless or pitiless crime which is unnecessarily torturous to the
victim.
Hernandez v. State, 4 So. 3d 642, 668-69 (Fla. 2009) (quoting State v. Dixon, 283 So. 2d 1, 9
(Fla. 1973)). The HAC aggravator focuses on the means and manner of the victim’s death
and the immediate circumstances surrounding the death. See Pham v. State, 70 So. 3d
485, 497 (Fla. 2011); McGirth, 48 So. 3d at 794. “[I]n order to support a finding of this
aggravator, ‘the evidence must show that the victim was conscious and aware of
impending death.’ ” King v. State, 130 So. 3d 676, 684 (Fla. 2013) (quoting Douglas, 878
So. 2d at 1261). However, “the victim’s perception of imminent death need only last
seconds for this aggravator to apply.” Gonzalez v. State, 136 So. 3d 1125, 1157 (Fla. 2014);
see also Buzia v. State, 926 So. 2d 1203, 1214 (Fla. 2006) (finding that victim was aware of
impending death “[w]hether this state of consciousness lasted minutes or seconds” and
upholding HAC aggravator). Relevant here, “[t]his Court has ‘consistently upheld HAC in
beating deaths.’ ” Douglas, 878 So. 2d at 1261 (quoting Lawrence v. State, 698 So. 2d 1219,
1222 (Fla. 1997)); accord King, 130 So. 3d at 684; see also, e.g., *1003 Buzia, 926 So. 2d at
1214 (upholding the HAC aggravator where victim was struck with a fist and an ax and
was awake and aware for at least part of the ordeal); Dennis v. State, 817 So. 2d 741, 766
(Fla. 2002) (upholding finding of HAC aggravator where victims suffered skull fractures as
a result of beating and were conscious for at least part of the attack); Beasley v. State, 774
So. 2d 649, 671 (Fla. 2000) (holding that competent, substantial evidence supported the
trial court’s finding of the HAC aggravator where victim suffered blunt trauma to the head
by a hammer and was not rendered immediately unconscious as evidenced by defensive
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

16

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

injuries).
Bright contends that the evidence was insufficient to support the trial court’s finding of
HAC because there is no evidence that King was conscious and aware of his impending
death. Specifically, Bright relies upon Dr. Rao’s testimony during cross-examination that
each blow to the head that caused a skull fracture could have caused death by itself.
Bright’s argument, however, ignores case law from this Court explaining that “[t]he
existence of defensive wounds is relevant to the HAC analysis.” King, 130 So. 3d at 684.
Where, like here, the sequence of injuries cannot be established, this Court has found that
evidence of defensive wounds indicates that the victim was conscious and aware of
impending death. For example, in King, this Court concluded that the trial court’s finding
of the HAC aggravator was supported by competent, substantial evidence where the
medical examiner testified that the victim was struck seventeen times with a hammer. Id.
at 686. “Three of the blows were to the head, which would have been fatal and rendered
the victim unconscious.” Id. at 680. Although the medical examiner could not testify to the
sequence of the blows inflicted on the victim, this Court found that “[t]he defensive
wounds to the victim’s hand and arm clearly demonstrate that the victim was conscious
and aware of her impending death and attempting to fend off the attack.” Id. at 685.
Similarly, in Douglas, the medical examiner could not determine the sequence of injuries
to the victim, who died of blunt head trauma, and testified that “if the first injury inflicted
was one of the more severe [the victim] could have been rendered unconscious.” 878 So. 2d
at 1251, 1262. On appeal, the defendant argued that the evidence left open the possibility
that the victim lost consciousness after the first blow. Id. at 1262. This Court upheld the
trial court’s finding of the HAC aggravator, relying upon the medical examiner’s testimony
that it was “not likely” that the victim was rendered unconscious by the first blow given
that she turned her head during the beating and suffered defensive wounds to her hands
and forearms. Id.; see also Boyd v. State, 910 So. 2d 167, 191 (Fla. 2005) (finding that
“[w]hile the exact order of wounds could not be established, there was competent,
substantial evidence to support the trial court’s finding that [the victim] was alive and
conscious for some of the attack, and was struggling with her attacker” where victim
sustained defensive wounds); Beasley, 774 So. 2d at 670 (rejecting defendant’s argument
that the murder was not HAC because the victim might have been rendered immediately
unconscious by blows from a hammer where evidence of defensive wounds existed).
Here, there was competent, substantial evidence in the record to support the finding of the
HAC aggravator. Dr. Rao testified that King received thirty-eight blunt impact injuries to
his head and about twenty injuries to his extremities and that the injuries were consistent
with being caused by a hammer. Dr. Rao also testified that King was alive when these
injuries were inflicted and that he suffered. Significantly, King had numerous defensive
*1004 wounds: bruising on his left arm; a fracture of his left ulna; abrasions and bruising
of the entire back of his left hand; bruising and abrasions on his right forearm and back of
his right hand; and an abrasion and laceration on his left knee. Although Dr. Rao testified
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

17

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

on cross-examination that each blow to the head that caused a skull fracture and brain
injury could have caused death by itself, Dr. Rao also opined that King’s defensive wounds
evidenced that he was not rendered unconscious after one blow. Thus, competent,
substantial evidence supports the finding of the HAC aggravator.
Bright relies on Williams v. State, 37 So. 3d 187 (Fla. 2010), in support of his argument
that there is insufficient evidence to support the trial court’s finding of the HAC
aggravator. In Williams, this Court struck the HAC aggravator, concluding that given the
lack of any defensive wounds and the speculative nature of other evidence relied upon by
the trial court, there was no evidence to support the trial court’s finding that the victim
was conscious and aware of impending death. Id. at 200-01. As Dr. Rao’s testimony
established that King suffered defensive wounds, Williams is not analogous. Bright’s
reliance on Elam v. State, 636 So. 2d 1312 (Fla. 1994), is also misplaced. In Elam, this
Court held that the trial court erred in finding the HAC aggravator where, although the
victim suffered “defensive wounds, the medical examiner testified that the attack took
place in a very short period of time (‘could have been less than a minute, maybe even half
a minute’), the defendant was unconscious at the end of this period, and never regained
consciousness.” Id. at 1314. This Court subsequently declined to apply Elam in Rolling v.
State, 695 So. 2d 278 (Fla. 1997), where the evidence demonstrated that the victim, who
was stabbed while asleep in her bed, “sustained several defensive wounds to her arms and
leg, and did not die instantaneously.” Id. at 296. We find the instant case more akin to
Rolling, where King’s defensive wounds negate the possibility that he was rendered
immediately unconscious after in initial blow to the head. Cf. Perez v. State, 919 So. 2d
347, 378-79 (Fla. 2005) (finding Elam “clearly distinguishable” where victim suffered
defensive wounds and blunt force trauma to the head, was stabbed ninety-four times, and
the medical examiner testified that the victim “would have lost consciousness within a
matter of a few seconds to as much as two minutes” after receiving the fatal stab wound).
Because competent, substantial evidence supports the finding of the HAC aggravator as to
the murder of King, Bright is not entitled to relief on this claim.

D. Mitigating Circumstances
Bright also argues that the trial court erred in rejecting the two statutory mitigating
circumstances presented with respect to both murders: (1) that Bright committed the
murders while he was “under the influence of extreme mental or emotional disturbance,” §
921.141(7)(b), Fla. Stat. (2107), and (2) that Bright’s “capacity ... to appreciate the
criminality of his ... conduct or to conform his ... conduct to the requirements of law was
substantially impaired,” § 921.141(7)(f), Fla. Stat. (2017). Bright further argues that the
trial court abused its discretion in assigning no weight to the nonstatutory mitigating
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

18

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

circumstance of his abusive childhood. As explained below, we find the trial court did not
abuse its discretion by not finding that either statutory mitigating circumstance was
established or by assigning no weight to the nonstatutory circumstance of Bright’s abusive
childhood.
“Where it is clear that the trial court has considered all evidence presented in support of a
mitigating factor, the court’s decision as to whether that circumstance is established will
be reviewed only *1005 for abuse of discretion.” Ault v. State, 53 So. 3d 175, 186-87 (Fla.
2010). A trial court’s determinations on the issue will be upheld when supported by
competent, substantial evidence. Hoskins v. State, 965 So. 2d 1, 17 (Fla. 2007). “A trial
court must find a proposed mitigating circumstance when the defendant has established
that mitigator through competent, substantial evidence.” Oyola v. State, 99 So. 3d 431, 444
(Fla. 2012). “A trial court may reject a defendant’s claim that a mitigating circumstance
has been proved, however, provided that the record contains ‘competent substantial
evidence to support the trial court’s rejection of these mitigating circumstances.’ ” Nibert v.
State, 574 So. 2d 1059, 1062 (Fla. 1990) (quoting Kight v. State, 512 So. 2d 922, 933 (Fla.
1987)). “A mitigator may ... be rejected if the testimony supporting it is not substantiated
by the actions of the defendant, or if the testimony supporting it conflicts with other
evidence.” Oyola, 99 So. 3d at 445. With regard to expert opinion testimony, “[e]ven
uncontroverted opinion testimony can be rejected, especially when it is hard to reconcile
with the other evidence presented in the case.” Philmore v. State, 820 So. 2d 919, 936 (Fla.
2002). With these principles in mind, we address each of Bright’s arguments in turn.

1. Extreme Mental or Emotional Disturbance Mitigator
Bright argues that the trial court erred in failing to find the statutory mitigating
circumstance that he committed the murders while under the influence of extreme mental
or emotional disturbance.15 Because there is competent, substantial evidence in the record
to support the trial court’s finding, we disagree.
In support of his argument, Bright relies upon Dr. Gold’s testimony that he diagnosed
Bright with PTSD. Dr. Gold testified that Bright’s PTSD played a role in this case because
Bright perceived that he was in danger in his home, which was impacted by the trauma of
his childhood abuse. Dr. Gold further opined that as a result of Bright’s mounting sense of
fear in his home, Bright killed King and Brown while he was under the influence of
extreme mental or emotional disturbance. Unlike Dr. Gold, however, Dr. Krop, who
evaluated Bright shortly after the murders in 2008 and 2009, did not diagnose Bright with
PTSD. Dr. Krop testified that there were several reasons he did not diagnose Bright with
PTSD at the time of his evaluation. First, records Dr. Krop reviewed from the time Bright
received treatment from the Veteran’s Administration contained no indication of PTSD.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

19

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

Second, as reflected in a report authored by Dr. Krop in August 2008, Bright stated that
he had a normal childhood, free from abuse and trauma. Furthermore, the psychological
testing Dr. Krop conducted on Bright, including the Beck Anxiety Inventory, Beck
Depression Inventory, and the MMPI-2, did not suggest a basis for a PTSD diagnosis.
Thus, the trial court’s finding that the extreme mental or emotional disturbance mitigator
was not established was supported by competent, substantial evidence in the record that
Bright was not suffering from PTSD at the time of the murders.
We therefore conclude that the trial court did not abuse its discretion in rejecting this
proposed mitigating circumstance. See Foster v. State, 679 So. 2d 747, 755 (Fla. 1996) (“As
long as the court considered all of the evidence, a trial judge’s determination of lack of
mitigation will *1006 stand absent a palpable abuse of discretion.”).

2. Capacity to Appreciate the Criminality of Conduct or Conform Conduct to the
Requirements of Law
Bright next argues that he presented unrebutted expert testimony through Dr. Gold that
his capacity to appreciate the criminality of his conduct or to conform his conduct to the
requirements of law was substantially impaired, and that the trial court abused its
discretion in rejecting this mitigator. Bright’s claim is without merit.
“A mitigator may ... be rejected if the testimony supporting it is not substantiated by the
actions of the defendant, or if the testimony supporting it conflicts with other evidence.”
Oyola, 99 So. 3d at 445. Indeed, even “[w]hen expert opinion evidence is presented, it ‘may
be rejected if that evidence cannot be reconciled with the other evidence in the case.’ ”
Williams, 37 So. 3d at 204 (quoting Coday, 946 So. 2d at 1003).
In finding that this mitigator had not been proven by a greater weight of the evidence, the
trial court stated as follows in its sentencing order:
Defendant took actions immediately after committing the crimes that
suggest he was attempting to conceal his identity. Defendant used and
then disposed of gloves in order to conceal his fingerprints, he hid the
murder weapon, and he fled his home. All of these actions are consistent
with someone who understands their actions are wrong and is attempting
to avoid the repercussions of what they have done.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

20

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

As this Court explained in Ault, 53 So. 3d 175, a defendant’s purposeful actions after the
crime indicating that the defendant was aware of the criminality of his conduct may be
sufficient to reject a defendant’s claim that this mitigator applies. In Ault, the defendant
admitted that he murdered the victims out of fear of going to jail, placed the victims’
bodies in his attic, and lied to the victims’ mother and the police regarding his knowledge
of the victims’ disappearance. Id. at 189. This Court found that the record demonstrated
that the defendant was not substantially impaired in his ability to appreciate the
criminality of his conduct or to conform his conduct to the requirements of the law,
explaining:
We have upheld a trial court’s rejection of this mitigating circumstance when a
defendant’s actions during and after the crime has indicated that he was aware of the
criminality of his conduct. In Nelson v. State, 850 So. 2d 514, 531 (Fla. 2003), for
example, we upheld the trial court’s ruling where the defendant removed the victim from
her home after sexually assaulting her, drove to two separate orange groves before
killing her, and lied to police about the crime. We found that the defendant’s “purposeful
actions [were] indicative of someone who knew those acts were wrong and who could
conform his conduct to the law if he so desired.” Id. Similarly, in Hoskins v. State, 965
So. 2d 1, 18 (Fla. 2007), we found that the trial court properly rejected the defendant’s
inability “to appreciate the criminality of his conduct” as mitigation where, after raping
the victim, “Hoskins’s purposeful actions in binding and gagging [the victim] before
placing her in the trunk, driving to his parents’ home six hours away, borrowing a
shovel, driving to a remote area where he killed [the victim], and then telling his brother
he hit a possum when blood was noticed dripping from the rear wheel well [were]
indicative of someone who knows his conduct is wrong.”
53 So. 3d at 188-89 (alterations in original).
Here, Bright’s purposeful actions after the murders are indicative of someone who *1007
knew that his actions were criminal and could conform his conduct to the law. Specifically,
there was testimony that Bright fled his home after the murders. Additionally, there was
testimony from a crime scene investigator and police officers from the Jacksonville
Sheriff’s Office that Bright concealed the murder weapon by burying it deeply in his
backyard. Thus, Bright’s purposeful actions after the murders constitute competent,
substantial evidence to support the trial court’s rejection of this mitigating circumstance.
Accordingly, we reject Bright’s claim on this issue.

3. The Existence of Any Other Factors in the Defendant’s Background That
Would Mitigate Against Imposition of the Death Penalty
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

21

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

Bright also argues that the trial court abused its discretion in assigning no weight to the
nonstatutory mitigating circumstance that Bright was the victim of childhood abuse and
neglect. This argument is without merit.
“A trial court’s decision with regard to the weight to be assigned to a mitigating
circumstance that it determines has been established is ‘within the trial court’s discretion,
and its decision is subject to the abuse-of-discretion standard.’ ” Perez, 919 So. 2d at 372
(quoting Kearse v. State, 770 So. 2d 1119, 1133 (Fla. 2000)); accord Allen v. State, 137 So.
3d 946, 967 (Fla. 2013). This includes the discretion to assign an established mitigating
circumstance no weight. Trease v. State, 768 So. 2d 1050, 1055 (Fla. 2000) (“We hereby
recede from our opinion in Campbell [v. State, 571 So. 2d 415, 420 (Fla. 1990] to the extent
it disallows trial courts from according no weight to a mitigating factor and recognize that
there are circumstances where a mitigating circumstance may be found to be supported by
the record, but given no weight.”); accord Mullens v. State, 197 So. 3d 16, 30 (Fla. 2016)
(stating that a trial court “may conclude that a particular mitigating circumstance exists,
but assign it no weight”). Under the abuse of discretion standard, a trial court’s
determination as to the weight assigned to a mitigating circumstance will be upheld
unless “no reasonable [person] would take the view adopted by the trial court.” Perez, 919
So. 2d at 372 (alteration in original) (quoting Trease, 768 So. 2d at 1053 n.2.).
This Court addressed a trial court’s refusal to grant nonstatutory mitigating
circumstances any weight in Cox v. State, 819 So. 2d 705 (Fla. 2002). In Cox, the trial
court assigned slight or no weight to the “mitigating nature of [the defendant’s]
childhood.” Id. at 722. In finding that the trial court did not abuse its discretion in
assigning no weight to certain mitigating circumstances, this Court reasoned that the trial
court “simply attempted to place the appellant’s mitigation evidence in context. The trial
court’s holdings regarding certain of the appellant’s proffered mitigators resulted from an
absolute dearth of evidence contained in the record supporting the notion that the cited
mitigators are relevant to the defendant in the instant case.” Id. at 723 (footnote omitted).
The trial court’s “attempt[ ] to place the appellant’s mitigation evidence in context” was
demonstrated in the trial court’s statement that:
While the evidence supports the existence of his heightened anxiety in
dealing with other people, the evidence does not support any conclusions
or even speculations as to how it contributed to Mr. Cox’s decisions and
actions that led to [the victim’s] death. ... Thus, while established by Dr.
McMahon’s opinion, the court declines to afford any weight to this
circumstance.
Id. at 723 n.15.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

22

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

Here, the trial court found that the nonstatutory mitigating circumstance of Bright’s
childhood abuse and neglect had *1008 been established but assigned it no weight,
concluding:
More notably, there is a disconnect between Defendant’s trauma and the
offenses. Once Defendant left his home and joined the military he was a
productive member of society and there is no evidence that the trauma in
his childhood prevented him from living like a normal person. Therefore,
the Court finds that the non-statutory mitigators under this heading have
been established, however, the Court assigns no weight to these
mitigators.
Thus, as in Cox, the trial court in the present case simply placed the mitigation evidence
in the context of the other evidence presented. Specifically, the trial court considered the
mitigating circumstance of Bright’s childhood in the context of Bright’s subsequent ability
as an adult to serve in the military and function productively such that the abuse and
neglect Bright suffered as a child were shown to have no real bearing on Bright’s action in
committing the murders.
Accordingly, because we cannot conclude that no reasonable person would have assigned
the mitigating circumstance of Bright’s childhood abuse and neglect no weight, we
conclude that the trial court did not abuse its broad discretion in assigning no weight to
this mitigating circumstance.

E. Proportionality
Finally, Bright argues that the sentences of death are disproportionate because his case is
not among the most aggravated and least mitigated of first-degree murder cases. We find
that the sentence of death is proportionate in both murders.
This Court has explained proportionality review as follows:
This Court reviews the proportionality of each death sentence “to determine whether the
crime falls within the category of both the most aggravated and the least mitigated of
murders, thereby assuring uniformity in the application of the [death] sentence.”
Anderson v. State, 841 So. 2d 390, 407-08 (Fla. 2003) (citation omitted). In conducting its
proportionality review, this Court does not compare the number of aggravating and
mitigating circumstances. Pham v. State, 70 So. 3d 485, 500 (Fla. 2011). Rather, “the
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

23

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

Court looks at the totality of the circumstances to determine if death is warranted in
comparison to other cases where the sentence of death has been upheld.” Id. (quoting
England v. State, 940 So. 2d 389, 408 (Fla. 2006)).
Cozzie v. State, 225 So. 3d 717, 734 (Fla. 2017). A proportionality review therefore entails
“a qualitative review by this Court of the underlying basis for each aggravator and
mitigator rather than a quantitative analysis.” Urbin, 714 So. 2d at 416.
Although the same mitigating circumstances apply, the jury found different aggravating
factors for each murder. Because it has fewer aggravating factors, we first address the
murder of Brown.
As to the murder of Brown, a unanimous jury and the trial court found one aggravating
factor—that Bright was previously convicted of a capital felony or a felony involving the
use or threat of violence to a person or both (great weight). The aggravator was based
upon Bright’s contemporaneous murder of King and his 1990 conviction for armed
robbery. With regard to mitigating circumstances, the jury found the nonstatutory
mitigator that there existed other factors in Bright’s character, background, or life or the
circumstances of the offense mitigating against the imposition of the death penalty to be
established by a vote of one to eleven. Within this catch-all mitigator, the trial court found
thirty-eight nonstatutory mitigating factors were established, grouped them into six
categories, and assigned each category *1009 little or no weight. As explained above, we
find no abuse of discretion in the trial court finding that no statutory mitigating
circumstances had been established.
“[T]his Court has indicated that where only a single valid aggravating circumstance exists,
a sentence of death may be inappropriate.” Mullens, 197 So. 3d at 35. However, where the
“single aggravator ... involved a prior murder or manslaughter,” this Court has upheld a
sentence of death. Green v. State, 975 So. 2d 1081, 1088 (Fla. 2008); accord Almeida v.
State, 748 So. 2d 922, 933 (Fla. 1999) (“[T]his Court has affirmed the death penalty in
single-aggravator cases where a prior murder was involved.”).
For example, in Bolin, 117 So. 3d at 728, this Court upheld a death sentence based on a
single prior violent felony aggravator where that aggravator involved another murder, and
the mitigation was not substantial. In Bolin, Bolin stabbed and beat the victim to death.
The death sentence was found to be proportionate where the trial court found one
aggravator—previously convicted of another capital felony or of a felony involving the use
or threat of violence to the person—and assigned it great weight. The aggravator was
based upon Bolin’s conviction for another first-degree murder, a kidnapping and rape
conviction, and a conviction for felonious assault. Id. at 742. In mitigation, the trial court
found:
(1) age of defendant at time of crime (24)—little weight; and (2) the
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

24

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

following statutory catch-all mitigator of any other factors in the
defendant’s background that would mitigate against imposition of the
death penalty: (a) defendant suffered from the effects of his mother’s
alcoholism and his own substance abuse—little weight; (b) defendant was
abused as a child—some weight; (c) defendant had a poor and unstable
childhood—little weight; (d) defendant had sporadic minimal
education—little weight; (e) defendant received his GED while
incarcerated—little weight; (f) defendant developed skills which included
welding, electrical, plumbing, and small machinery skills—little weight;
(g) defendant saved the life of another—little weight; (h) defendant was
gainfully employed at the time—little weight; (i) defendant behaved
appropriately at trial—little weight; (j) defendant has adapted to
institutional living and had not received any disciplinary reports—little
weight; (k) defendant has been married for eleven years and he seems to
maintain that relationship, considering the obvious limitations—little
weight; and (l ) defendant’s physical and mental medical history indicates
several problems—little weight. Additionally, the trial court gave some
weight to a finding of some mental or emotional disturbance.
Id. at 741. After considering the facts underlying the prior violent felony aggravator and
noting that the aggravator is one of the most weighty, this Court characterized the
mitigation, which included nonstatutory mitigation similar to that of Bright, as well as
“some mental or emotional disturbance,” as being of “insubstantial effect” and found the
death sentence to be proportionate. Id. at 742; see also, e.g., Sheppard v. State, 151 So. 3d
1154 (Fla. 2014) (finding death sentence to be proportionate where trial court found a
single aggravator of violent felony conviction based upon an almost contemporaneous
murder and earlier violent felonies committed as a juvenile, statutory mitigator of age,
and fifteen nonstatutory mitigators); Rodgers v. State, 948 So. 2d 655, 672 (Fla. 2006)
(finding death penalty proportionate where the trial court found a single aggravator of
prior violent felony conviction based on prior convictions for robbery and manslaughter
and “insubstantial mitigation” consisting of statutory mitigation *1010 based on
impoverished background and nonstatutory mitigation); Ferrell v. State, 680 So. 2d 390
(Fla. 1996) (finding death sentence proportionate where the trial court found a single
aggravator of prior violent felony conviction based on second-degree murder and several
nonstatutory mitigating circumstances).
This Court has also found the death sentence proportionate where the single aggravator
was based in part upon a contemporaneous murder and mitigation was insubstantial. In
Bevel v. State, 983 So. 2d 505 (Fla. 2008), Bevel shot and killed two victims, Stringfield
and Sims, and attempted to kill a third. As to the murder of Stringfield, the trial court
found only one aggravating factor, that the defendant was previously convicted of a capital
offense or of a felony involving the use or threat of violence to some person, and assigned it
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

25

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

very great weight. Id. at 513. The prior violent felony aggravator was based upon the
contemporaneous murder of Sims, the attempted murder of the third victim, and a prior
attempted robbery conviction. The trial court found six nonstatutory mitigating
circumstances and assigned most little or very little weight.16 Even though it was a single
aggravator case, this Court found the death penalty proportionate given the “minimal
nonstatutory mitigation” and the facts upon which the aggravator was based, i.e., the
contemporaneous murder of Sims, an attempted murder, and a prior robbery. Id. at 525.
Indeed, in reaching its conclusion, this Court stated that in looking at the totality of the
circumstances, it had to consider the facts upon which the prior violent felony aggravator
was based. See id. at 524.
Bright argues that his case is analogous to Nibert, 574 So. 2d at 1059, where this Court
found a death sentence based on a single aggravator and substantial mitigation to be
disproportionate. In Nibert, Nibert stabbed the victim to death while the two were
drinking. Id. at 1059-60. The trial court found one aggravating factor—that the murder
was committed in an especially heinous, atrocious, or cruel manner. Id. at 1061. The trial
court found no statutory mitigating circumstances and “possible” nonstatutory mitigation
that Nibert had been abused as a child. Id. On appeal, this Court found that the trial court
erred in rejecting the nonstatutory mitigating circumstance of childhood abuse, as Nibert
presented uncontroverted evidence that his mother was an abusive alcoholic who beat him
daily. Id. at 1062. This Court also found that the trial court should have found the
statutory mitigating circumstances that Nibert lacked the capacity to conform his conduct
to the requirements of the law and that Nibert was under the influence of extreme
emotional or mental disturbance. Id. at 1062-63. Concluding that the death penalty was
disproportionate, this Court noted that “[t]his case involves substantial mitigation, and we
have held that substantial mitigation may make the death penalty inappropriate even
when the aggravating circumstance of heinous, atrocious, or cruel has been proved.” Id. at
1063. We find that Nibert is distinguishable from the instant case. While, as in this case,
the mitigating circumstances in Nibert included childhood abuse, unlike the instant case,
they included additional mitigating circumstances—that Nibert’s capacity to control his
behavior was substantially *1011 impaired and that Nibert was under the influence of
extreme mental or emotional disturbance. Moreover, in Nibert, the record showed that
Nibert was drinking when he committed the murder and that Nibert lacked control over
his behavior when he drank. Id. Here, however, there is no evidence Bright was
intoxicated or under the influence of drugs when he murdered King and Brown.
We hold the death sentence for Brown’s murder to be proportionate. Although Bright’s
death sentence for Brown’s murder was based on a single prior violent felony aggravator,
that one aggravator was based on two crimes—the contemporaneous murder of King and
the 1990 conviction for an armed robbery Bright committed with a knife. The
circumstances of the contemporaneous murder were brutal. Bright beat King to death,
causing thirty-eight blunt impact injuries to his head and about twenty to his extremities.
Dr. Rao testified that King was alive when the injuries were inflicted, and King suffered
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

26

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

extensive defensive wounds. The trial court assigned this aggravator great weight, and
this Court has stated that the prior violent felony aggravator is one of the most weighty
aggravating circumstances in Florida’s statutory sentencing scheme. See Bolin, 117 So. 3d
at 742; Armstrong v. State, 73 So. 3d 155, 175 (Fla. 2011). Bright argues that the
circumstances surrounding the prior violent felony aggravator are not compelling,
speculating that Bright’s attack may have been provoked because live rounds were found
on top of the television and in the carpet and gunpowder residue was found next to the
couch. This argument is not persuasive, however, given that a detective from the
Jacksonville Sheriff’s Office testified that neither King nor Brown had gunshot residue on
his hands. With regard to mitigation, the trial court found that six categories of
nonstatutory mitigation were established, but assigned them little or no weight: (1) Bright
was the victim of child abuse and neglect (no weight); (2) Bright’s military career (little
weight); (3) Bright’s history of drug and alcohol abuse (little weight); (4) Bright’s positive
relationships with others (little weight); (5) Bright’s good and mannerly behavior during
court proceedings (no weight); and (6) Bright’s behavior while incarcerated (no weight).
This Court has considered similar nonstatutory mitigation to be of “insubstantial effect.”
See Bolin, 117 So. 3d at 742. Given the totality of the circumstances, including the weighty
aggravator of a prior violent felony that was based upon a brutal, contemporaneous
murder and our review of the mitigation, we conclude that the death sentence for Brown’s
murder is proportionate when compared to other single aggravator cases where the single
aggravator was weighty and the mitigation was not substantial.
The sentence of death for the murder of King is proportionate as well. As with the murder
of Brown, the jury and the trial court found the prior violent felony aggravator for the
murder of King (great weight). This aggravator was based in part on the contemporaneous
brutal beating death of Brown and Bright’s 1990 conviction for armed robbery. However,
the jury and trial court additionally found the HAC aggravator for the murder of King,
which the trial court assigned great weight. As explained above, there is competent,
substantial evidence to support the finding of the HAC aggravator. “Qualitatively, prior
violent felony and HAC are among the weightiest aggravators set out in the statutory
sentencing scheme.” Hodges v. State, 55 So. 3d 515, 542 (Fla. 2010)); accord Jordan v.
State, 176 So. 3d 920, 936 (Fla. 2015); Gonzalez, 136 So. 3d at 1167; see also Fletcher v.
State, 168 So. 3d 186, 220 (Fla. 2015) (“[T]he HAC aggravator is among the weightiest of
the aggravating circumstances.”). Bright argues that the HAC aggravator must be
considered in *1012 light of the fact that Bright felt fearful of King and Brown because
they were threatening him in his home. This argument is unpersuasive as there was no
evidence presented at the penalty phase proceeding that Bright was in fear of Brown or
King, which Bright’s counsel conceded below.17 Regarding the mitigation, as the
mitigating circumstances were the same for both murders, our consideration of the
mitigating circumstances for the murder of Brown applies equally for the murder of King.
Under the totality of the circumstances, Bright’s sentence of death for the murder of King
is proportionate in relation to other death sentences this Court has upheld with similar
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

27

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

aggravation and similar or more substantial mitigation. See, e.g., Merck v. State, 975 So.
2d 1054 (Fla. 2007) (finding death sentence proportionate for stabbing murder where trial
court found prior violent felony and HAC aggravators, statutory age mitigator, and several
nonstatutory mitigators, including a difficult family background, alcohol use the night of
the murder, and a capacity to form positive relationships); Smithers v. State, 826 So. 2d
916 (Fla. 2002) (upholding death sentence where victim died from combination of
strangulation, stabbing, and blunt force trauma to the head and trial court found prior
violent felony aggravator, based on contemporaneous murder, and HAC aggravator,
statutory mitigators of under the influence of extreme mental or emotional disturbance
and capacity to appreciate the criminality of conduct or conform conduct to the
requirements of the law substantially impaired, as well as nonstatutory mitigation);
Singleton v. State, 783 So. 2d 970 (Fla. 2001) (finding death sentence proportionate where
defendant stabbed a supine victim and trial court found prior violent felony and HAC
aggravators and mitigating circumstances including under the influence of extreme
mental or emotional disturbance, capacity to appreciate the criminality of conduct or to
conform conduct to the requirements of law substantially impaired, alcoholism, and
honorable service in the military); Spencer v. State, 691 So. 2d 1062 (Fla. 1996) (holding
death sentence proportionate where trial court found prior violent felony aggravator based
on contemporaneous convictions for aggravated assault, aggravated battery, and
attempted second-degree murder; the HAC aggravator; statutory mitigating
circumstances of extreme mental or emotional disturbance and impaired capacity to
appreciate criminality of conduct or to conform conduct to requirements of law; and
nonstatutory mitigating circumstances including drug and alcohol abuse, sexual abuse,
and honorable military record).
Thus, considering the totality of the circumstances in this case, and in comparison with
other death cases, we conclude that the sentences of death are proportionate for the
murders of Brown and King.

III. CONCLUSION
Having considered each of Bright’s claims, we affirm the sentences of death.
It is so ordered.

CANADY, C.J., and POLSTON, LAWSON, and MUÑIZ, JJ., concur.
LABARGA, J., concurs in result.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

28

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

All Citations
299 So.3d 985, 45 Fla. L. Weekly S111

Footnotes

1

See Spencer v. State, 615 So. 2d 688 (Fla. 1993).

2

The trial court determined that the State had proven beyond a reasonable doubt the
following statutory aggravators: (1) previous conviction of a felony involving the use
or threat of violence to the person (a 1990 conviction for robbery) (great weight); (2)
previous conviction of a felony involving the use or threat of violence to the person
(the contemporaneous murder of the other victim) (great weight); and (3) the murder
was especially heinous, atrocious, or cruel (HAC) (great weight). 90 So. 3d at 256-57.

3

The trial court found one statutory mitigating circumstance—that the murders were
committed while Bright was under the influence of an extreme mental or emotional
disturbance (some weight). The trial court also found nineteen nonstatutory
mitigators:
(1) a long and well-documented history of drug abuse (some weight); (2) Bright
repeatedly sought help for his problems (some weight); (3) remorse (little weight);
(4) Bright was afraid of the victims and took steps to remove them from his house
(little weight); (5) ten years of service in the USMC with two honorable discharges
and a third discharge under honorable circumstances (considerable weight); (6)
Bright has skills as a mechanic and served as an aviation mechanic in the USMC
(some weight); (7) Bright’s actions as a USMC aviation mechanic likely saved lives
(some weight); (8) Bright mentored young mechanics (some weight); (9) Bright was
a good employee (some weight); (10) Bright was a loving and giving boyfriend
(slight weight); (11) Bright is a good brother (some weight); (12) Bright was a good
father, and imposition of the death penalty would have a serious, negative impact
on others (slight weight); (13) Bright shares love and support with his family
(slight weight); (14) Bright was a good friend (slight weight); (15) Bright has been
an exceptional inmate (some weight); (16) Bright exhibited good behavior
throughout the court proceedings (slight weight); (17) Bright maintained gainful
employment (considerable weight); (18) Bright is amenable to rehabilitation and a
productive life in prison (slight weight); and (19) Bright has bonded with another
inmate and taught him how to read (slight weight).
90 So. 3d at 257.

4

This Court also affirmed the denial of Bright’s claims that guilt-phase counsel were
ineffective. 200 So. 3d at 737, 742.

5

Concerning Bright’s military career, the defense presented the testimony of James
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

29

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

Hernandez, an attorney and retired Marine. Hernandez testified, as he did in
Bright’s first penalty phase proceeding, regarding Bright’s personnel records for the
time Bright served in the Marine Corps. Hernandez testified that during his career
in the Marines, Bright received two awards for good conduct. Bright also received an
award called a Meritorious Mast when, while working as a fighter jet mechanic, he
observed a mechanical difficulty with an aircraft upon take-off and relayed to the
pilot to come down. Bright’s actions prevented a “tragic mishap.” On his last period of
active service, Bright received a “general under honorable conditions” discharge “by
reason of alcohol rehab failure.” The defense also presented the testimony of attorney
Michael Bossen, who testified that Bright’s ex-wife, Bridgett Bright, contacted him
early in the morning of February 19, 2008. He spoke with both Bridgett and Bright
on the phone, and Bright was despondent and cried. When Bossen met Bright the
next day at his first appearance, Bright was very despondent and could not
communicate at all.
6

Bright requested one finding as to this catch-all provision and therefore the jury
voted on this mitigator as a whole, rather than as to each nonstatutory mitigating
circumstance.

7

This category included the following nonstatutory mitigating circumstances: (1)
Bright was forced to work long hours as a child in his father’s junkyard; (2) Bright
was not allowed to play with other children while growing up; (3) Bright’s father
made him work in the junkyard through injury; (4) Bright suffered an eye injury
while working in the junkyard that still affects him; (5) Bright was a victim of
violence and abuse; (6) Bright’s father would beat him for hours at a time, drawing
blood, leaving welts, and rendering him unconscious; (7) Bright grew up extremely
poor with no running water, adequate heating, or trash collection; (8) Bright would
wet the bed and was beaten for it; (9) Bright stuttered and was beaten for that; (10)
Bright was choked by his older brother until he was unconscious; (11) Bright was
sexually abused by his older brother; (12) Bright’s father fired a gun around the
house; (13) Bright’s father beat and raped his mother; (14) Bright’s father was an
alcoholic; (15) Bright’s father would disappear for days and weeks at a time; (16)
Bright was a poor student because of his home life; (17) Bright’s punctuality at
school was poor; and (18) Bright ran away from home after high school.

8

This category included the following nonstatutory mitigating circumstances: (1)
Bright served in the Marine Corps for nine years as a jet mechanic; (2) Bright had
multiple promotions in the Marine Corps, including a meritorious promotion; (3)
Bright received two separate awards for good conduct; (4) Bright received a
“meritorious mast” for noticing a problem with a jet upon take-off; (5) Bright served
in the Red Sea and went to Africa for a deployment; (6) Bright attended a
noncommissioned officer leadership course where he learned basic leadership skills
and discipline; (7) Bright was presented with a certificate of appreciation; (8) Bright
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

30

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

achieved the rank of sergeant; and (9) Bright received two honorable discharges and
one “general under honorable conditions” discharge from the Marines.
9

This category included the nonstatutory mitigating circumstances that Bright
struggled with drugs and alcohol use for decades and has sought help for his
substance abuse problems on multiple occasions.

10

This category included the following nonstatutory mitigating circumstances: (1)
Bright took care of his sister when she was young; (2) Bright repaired a roof on his
sister’s house after a hurricane; (3) Bright is a good friend; (4) Bright is very close to
his daughter; (5) Bright is close with his grandchildren; (6) Bright’s family will
continue to foster their relationships with him while he is incarcerated; (7) Bright
encouraged his daughter to go to college; and (8) Bright’s daughter loves him
unconditionally and is grateful for their relationship.

11

Because the trial court did not err, we do not reach the State’s argument that Bright
waived fundamental error review by agreeing to the jury instructions.

12

The trial court instructed the jury as follows:
Your decision must not be based upon the fact that you feel sorry for anyone or are
angry at anyone.
....
Your decisions should not be influenced by feelings of prejudice, racial or ethnic
bias or sympathy. Your decisions must be based upon the evidence and the law
contained in these instructions.

13

See In re Std. Crim. Jury Instrs. in Capital Cases, 214 So. 3d 1236, 1266 (Fla. 2017)
(appendix) (“Rules for deliberation. ... 3. Your decisions must not be based upon the
fact that you feel sorry for anyone or are angry at anyone. ... 6. Your decisions should
not be influenced by feelings of prejudice, racial or ethnic bias, or sympathy. Your
decisions must be based on the evidence and the law contained in these
instructions.”).

14

The trial court instructed the jury as follows:
As explained before these proceedings, the defendant need only establish a
mitigating circumstance by the greater weight of the evidence, which means the
evidence that more than likely -- more likely than not tends to establish the
existence of a mitigating circumstance. If you determine by the greater weight of
the evidence that a mitigating circumstance exists, you must consider it
established and give that evidence such weight as you determine it should receive
in reaching your verdict about the appropriate sentence to be imposed.

15

The statutory mitigator of extreme emotional disturbance “has been defined as ‘less
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

31

Bright v. State, 299 So.3d 985 (2020)
45 Fla. L. Weekly S111

than insanity, but more emotions than the average man, however inflamed.’ ” Foster
v. State, 679 So. 2d 747, 756 (Fla. 1996) (quoting Duncan v. State, 619 So. 2d 279, 283
(Fla. 1993)).
16

The nonstatutory mitigators found were as follows:
(1) the defendant has religious faith and loves his family members (minimal
weight); (2) defendant confessed to the crime (little weight); (3) defendant has
exhibited good behavior in jail (very little weight); (4) defendant exhibited good
behavior in court (little weight); (5) defendant has an IQ of 65 (little weight); and
(6) defendant struggled with the death of his mother (very little weight).
Bevel, 983 So. 2d at 513 n.4.

17

As defense counsel stated during the conference on jury instructions:
I’ve agreed that there’s been no evidence presented that [Bright] was in fear at all
of the victims in this case. There was testimony from Miss Jones that she made
efforts to get people out of his house, and Mr. [sic] Gold was also able to corroborate
that. But I’m not going to alleged [sic] in any way that it was the victims.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

32

Bright v. State, Not Reported in So. Rptr. (2020)
45 Fla. L. Weekly S220

2020 WL 4691643
Supreme Court of Florida.
Raymond BRIGHT, Appellant(s)
v.
STATE of Florida, Appellee(s)
CASE NO.: SC17-2244
|
AUGUST 13, 2020
Lower Tribunal No(s).: 162008CF002887AXXXMA
Opinion
LABARGA, J., concurring.
*1 Appellant’s Motion for Rehearing is hereby denied.
Because Bright’s motion for rehearing reargues issues already addressed and does not raise any points of law or fact that this
Court has overlooked or misapprehended, I must concur with the majority to deny the motion for rehearing. However, I
remain firmly committed to my dissent in State v. Poole, 45 Fla. L. Weekly S41, S51-52 (Fla. Jan. 23, 2020) (Labarga, J.
dissenting), clarified, 45 Fla. L. Weekly S121 (Fla. Apr. 2, 2020), and to my position that the opinion was wrongly decided.

CANADY, C.J., and POLSTON, LAWSON, and MUÑIZ, JJ., concur.
LABARGA, J., concurs with an opinion.
COURIEL, J. did not participate.
All Citations
Not Reported in So. Rptr., 2020 WL 4691643, 45 Fla. L. Weekly S220
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

